OIG Investigative Reports, Boston, MA 02/18/2010- Paxton Woman Indicted on Fraud Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorneys Office
District of Massachusetts
FOR IMMEDIATE RELEASE
FEBRUARY 18, 2010
WWW.USDOJ.GOV/USAO/MA
CONTACT: CHRISTINA DiIORIO-STERLING
E-MAIL: USAMA.MEDIA@USDOJ.GOV
PAXTON WOMAN INDICTED ON FRAUD CHARGES
BOSTON, MA - A Paxton woman was indicted yesterday by a federal grand jury in connection with student financial aid fraud, passport fraud and use of a false identity.
United States Attorney Carmen M. Ortiz; Brian Hickey, Special Agent in Charge of the U.S. Department of Education, Office of the Inspector General; John Grasso, Acting Special Agent in Charge of the Office of the Inspector General, Social Security Administration, Office of Investigations - Boston Field Division; and James P. Ennis, Special Agent in Charge of the U.S. Department of State, Diplomatic Security Service, announced that CLARA P. ANDRADE-PALMER, a/k/a CLARA ANDRADE, a/k/a PAMELA A. PALMER (ANDRADE-PALMER), age 41 of Paxton, Massachusetts, was indicted on four counts of student financial aid fraud, passport fraud, and use of a false identity.
According to the Indictment it is alleged that: beginning in or about July of 2003 and continuing until October of 2005, ANDRADE-PALMER willfully and knowing obtained by fraud and false statements federal higher education loans totaling approximately $34,367.75; on about March 29, 2005, ANDRADE-PALMER willfully and knowing made false statements in an application for U.S. passport; on or about October 25, 2005, ANDRADE-PALMER used a false identity to obtain student financial aid; and on or about March 29, 2005, ANDRADE-PALMER used a false identity to obtain a U.S. passport.
A detention hearing and arraignment is scheduled for February 22, 2010, before U.S. Magistrate Judge Leo T. Sorokin.
If convicted, ANDRADE-PALMER faces a maximum sentence of 5 years in prison on counts one, three and four, a maximum sentence of 10 years in prison on count two, to be followed by 3 years of supervised release. ANDRADE-PALMER also faces a $20,000 fine on count one, and a $250,000 fine on counts two, three and four.
The case was investigated by the U.S. Attorney’s Financial Litigation Unit; the U.S. Department of Education, Office of the Inspector General, Office of Investigations; the U.S. Social Security Administration, Office of Inspector General, Office of Investigations; and the U.S. Department of State, Diplomatic Security Service. It is being prosecuted by Assistant U.S. Attorney Antoinette E.M. Leoney in Ortiz’s Major Crimes Unit.
The details contained in the Indictment are allegations. The defendants are presumed to be innocent unless and until proven guilty in a court of law.
###
Printable view
Last Modified: 02/26/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov